          Department   of Health and Human Sewices

                 OFFICE OF
            INSPECTOR GENERAL




          ACCESS TO COMMUNIW HEALTH
         CENTERS BY HOMELESS PERSONS




L




    —.
               EXECUTIVE                        SUMMARY


PURPOSE

To determine the extent that Federally funded community health centers serve
homeless people and how such services can be improved.

BACKGROUND

This survey was requested by the Office of the ksistant Secretary for Planning and
Evaluation, (ASPE) representing the Secretary of the Department of Health and
Human Services as a member of the Federal Interagency Council on the Homeless.

Community health centers (CHCS) are health clinics that provide comprehensive
family-oriented preventive and primary health semices to medically underserved,
disadvantaged populations experiencing financial, geographic, or cultural barriers to
care. There are 623 Federally supported centers in the U.S. and its territories which
seine over seven million people.

We selected a random sample of 72 urban centers. We then obtained the names and
addresses of homeless shelters in each of the their service areas. We did not gather
information from centers which received grants under the Health Care for the
Homeless Program since these programs are funded to serve the health care needs of
homeless persons.

We mailed surveys to the sample of centers and homeless shelters. These surveys
focused on barriers on accessing services, outreach services to the shelters, referrals of
homeless clients, treatment services, and case management for homeless persons. We
received surveys from 50 centers and 98 shelters in 46 cities.

We also conducted on-site visits at 6 cities with 7 CHCS and 16 nearby shelters. At
these cities we interviewed center management and the directors of homeless shelters
to supplement and clari~ information from the surveys.

FINDINGS

Two Thirds of the Community Health Centers Provide Outreach Services for
Homeless PeopIe

We found that 64 percent (32 of 50) of the CHCS provide outreach services for
homeless people. These services include sending staff to homeless shelters, and/or
contacting homeless shelters to provide information on services available. However,
we found that for 13 of these centers at least one nearby shelter reported that the
centers do not send staff to their shelter.



                                            i
It is possible that in 9 of the 18 cities where centers did not provide outreach services

the health care needs of homeless persons might be served because a specific Health

Care for the Homeless Program, funded under a Federal Section 340 Public Health

Service grant, exists in those cities. However, the remaining nine cities had neither a

Health Care for the Homeless Program nor outreach from the local center.


Community Health Centers Provide A Wide Range Of Treatment            Services To

Homeless People


The CHCS provide a broad range of treatment services such as acute medical

examinations and treatment, screening services for tuberculosis, hypertension, sexually

transmitted diseases, and preventive semices including well child care, immunizations,

comprehensive physicals, prenatal monitoring, and dental. They also provide

prescription drugs, laboratory, and radiology services.


Nevertheless, The Cknters Face Significant Barriers In Providing Services


Sixty-nine percent (34 of 49) of the CHCS reported that barriers existed with homeless

persons obtaining setices from the center. The most significant barriers are the lack

of available transportation, the center’s hours of operation, the clients’

inability/unwillingness to follow through on a plan of care, unavailability of necessary

services in the community, and the transient status of homeless persons. Fourteen

percent adapted their treatment or screening protocols to meet the needs of homeless

clients.


Some Homeless Shelters Do Not Refer clients To Nearby Health Centers


Twenty-eight percent (27 of 97) of the shelters reported they did not refer clients to

the centers for health care services. The remaining 70 homeless shelters did. Shelter

clients used public transportation, shelter bus tokens, or their own transportation to

travel to the centers. Others walked, relied on family and friends, or in some cases

used an ambulance.


OPPORTCJMHES        FOR IMPROVEMENT


The findings in this report reflect a greater potential for Community Health Centers

helping homeless people and suggest that better communication between the Health

Resources and Services Administration (HRSA) and the centers, and between the

centers and homeless shelters could have a positive impact on access to medical

services for homeless individuals.


HRSA can pursue improvements in semices offered homeless people in the

Community Health Center program by building on its existing efforts.

This might include:


 �    Developing and disseminating materials about effective practices.


                                            ii
   .    Holding workshops and training sessions for community health centers.

   .	   Emphasizing the responsibility to lessen all barriers which diminish the ability
        to serve homeless persons who present themselves to the clinic
        (e.g., hours of operation, transportation to the center).

   �	   Encouraging periodic contact between management        of the health centers and
        the shelters.

Community Health Centers themselves should improve communication            with homeless
shelters. Some ways to accomplish this include:

   �	   Identifying all homeless shelters that exist in their service areas. The city task
        forces, coalitions, or networks on hopelessness are valuable resources.

   .	   Providing, on a routine basis, information to those homeless shelters in their
        service areas on services available and locations.

  .	    Conducting periodic meetings with homeless shelters to discuss the medical
        needs situation in their area, the barriers that exist, and means to best address
        those barriers.

AGENCY COMMENTS            AND OIG RESPONSE

We received written comments from both HRSA and ASPE. HRSA concurred with
our suggestions and will develop an action plan to implement them. ASPE
commented on the importance of the findings, but raised some questions and made
recommendations for additional analyses. As they requested, we clarified our use of
the terms “homeless” and “outreach.” Their suggestions for additional analysis of such
topics as referral patterns, service coordination, emergency services, case management,
and actions taken to address barriers are important. Unfortunately they are beyond
the scope of our study, which was limited primarily to ascertaining whether and to
what extent the community health centers funded by the Federal Government were
actively involved in serving homeless individuals. Copies of their comments are
attached.




                                             .. .
                                            m
                      TABLE                     OF CONTENTS


                                                                                                                   PAGE


EXECUTIVE        SUMMARY


INTRODUCI’ION            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...1


FINDINGS       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...4


   Outreachservices            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...4


   Treatment      Services       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...5


   Barriers to Services         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...6


   Shelters Referring Clients . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 7

OPPORTUNITmS            FOR IMPROVEMENT                       . . . . . . . . . . . . . . . . . . . . . . . . . . . ...8


AGENCY COMMENTS                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...10

                          INTRODUCTION


PURPOSE

To determine the extent that Federally funded community health centers (CHCS)
serve homeless people and how such selvices can be improved.

BACKGROUND

This survey was requested by the Office of the Assistant Secretary for Planning and
Evaluation, (ASPE) representing the Secretary of the Department of Health and
Human Services as a member of The Federal Interagency Task Force on the
Homeless.

Homeless People

Homeless people are a heterogeneous group of men, women and children. They
include long term street dwellers, residents of homeless shelters and temporary living
quarters, the chronically mentally ill, the economically disadvantaged, single men and
women, the physically abused, families with children, as well as runaway and castoff
youths.

Homeless individuals have a variety of health care problems, including a high
incidence of mental illness and substance abuse/alcohol disorders. In over half of the
cases, they are without health insurance to cover medical care for physical and
emotional problems.

CommunityHealth Centem

CHCS are health clinics that were first funded by the federal government as part of
the “War on Poverty” in the mid-1960’s. Originally managed under the Economic
Opportunity Act, the neighborhood health center program was transferred to the
Public Health Service in the early 1970’s. Centers are located in each of the 50 States,
the District of Columbia, and the U.S. Territories and Possessions. The authorizing
legislation is Section 330 of the Public Health Semite Act, Public Law 94-63.

The centers provide comprehensive family-oriented preventive and primary health
services to medically undersexed, disadvantaged populations experiencing financial,
geographic or cultural barriers to care. They tailor services to meet the specific needs
of the community and special populations that include homeless persons, people
infected with HIV/AIDS, the elderly, and substance abusers.

There are 623 Federally supported CHCS in the United States and its territories.
Serving over seven million people, they are a significant component of the health care
services industry in this country. An estimated 61 percent of center users are


                                            1





..—
members of minority groups (27 percent African American, 27 percent Hispanic, and
7 percent other). Also, about 63 percent have incomes under the poverty level and
another 22 percent are between 100 and 200 percent of poverty.

To fulfill the provisions of the Public Health Service Act (42 USC 254c), the centers
must, either through its staff and supporting resources, or through contracts or
cooperative arrangements:

  �    Serve areas designated as medically underserved;

  �	   Provide basic primary medical care services plus support and facilitating
       semices appropriate for the target population;

  .	   Have a governing board where the majority of the members are users of the
       centers’ sexvices; and

  �    Adjust the cost of services to the patient’s ability to pay.

The support services that supplement basic services include mental health semices,
dental services, eye examinations and glasses, podiatry services, ambulatory surgical
services, health education services (including nutrition education), and other services
appropriate to meet the health needs of their medically undersexed population.

Medical services are provided to homeless individuals who present themselves to the
center for care. Charges for services are based upon income of the patient. As such,
homeless individuals are served as are other patients who utilize the center for
medical care.

Correspondingly, Health Care for the Homeless Programs (Section 340 of the Act),
which were not the subject of this study, receive targeted funds and thus should be
more able to conduct outreach and deal with the complex problems of individuals
living on the streets and in other nontraditional settings.

METHODOIX)GY

InspectionFocus

The inspection focuses on how CHC’S can best service the health care needs of
homeless persons.

SampleSelection

We used the Bureau of Primary Health Care’s 1994 Directory of Prima~ Care
Programs to identify centers which were funded under Section 330 of the Public
Health Semite Act. We excluded any centers which also received special funding to
operate a Health Care for the Homeless Program.


                                             2
We selected from the universe of 198 urban Section 330 CHCS a random sample of

72 centers. We excluded rural centers because arandom telephone su~eyof30          rural

centers had shown the majority of themdo not serve on-the-street homeless persons

or do not have homeless shelters in their service areas. From the sampled centers we

obtained the names and addresses of 172 homeless shelters in their service areas. In

addition to a mail survey sent to sampled centers we conducted on-site visits to 6 cities

with 7 centers and 16 shelters. At these cities we interviewed the centers’

management and the directors of homeless shelters to supplement and clari~

information from the surveys.


We mailed surveys to the sample of centers and homeless shelters. These surveys

focused on the following issues with data pertaining to calendar year 1994.


   �    Outreach semices to the shelters

   �    Treatment services

   �    Barriers on accessing setices

  �     Referrals of homeless clients


We received completed surveys from 50 centers and 98 shelters located in 46 cities.
Eighty-six percent of the them had a corresponding shelter return a sumey. While the
surveys were comprised of many closed-ended questions, we also used open-ended
questions which provided more in-depth information to explain and expand upon
close-ended responses.

We summarized and tabulated the self reported responses to all the sumey questions.
The responses were quantified to determine such issues as the extent of barriers that
prevented access to services, the number of CHCS that provide outreach services to
homeless shelters, and the quantity and type of referrals for medical and/or financial
services.

Due to sumey constraints in our study design we did not examine all health center
service configurations that provide medical care to homeless people. Therefore, the
total extent of arrangements among shelters and service providers to refer to a
particular program because of specific capabilities could not be taken into account.
This could have been the case for cities in our study which had Health Care for the
Homeless Programs, plus an unknown number of those cities where other programs
may also serve homeless individuals.

This report is one of two related reports on health care for homeless persons. A
companion report will address the extent that community mental health centers serve
the homeless population.

We conducted our review in accordance with the Quality Standardsfor Impectiorz.s
issued by the President’s Council on Integrity and Efficiency.




                                            3

                                 FINDINGS


TWO THIRDS OF THE COMMUWTYHWTU     CENTERS PROVIDE
OUTREACH SERKiTCESFOR HOMELESS PEOPLE

Sixty-four percent (32 of 50) of the centers provide outreach semices for homeless
persons. These centers sent staff to homeless shelters, soup kitchens, and food
pantries. They provided information on services available to homeless clients, assessed
needs, provided food and clothing, performed medical services, screenings and triage.
They send staff to the majority but not all of the shelters in their service areas.
However, we found that for 13 of them, at least one nearby homeless shelter reported
that the center did not send staff to their shelter. Also, in our sample of 50 centers
we found 48 percent (22 of the 46 cities) have Health Care for the Homeless
programs funded by a Federal Section 340 grant. This would mean that such a
grantee also operated in the city. We are not, however, aware of the proximity of
those grantees to all the homeless shelters.

The remaining centers do not contact or send staff to homeless shelters to conduct
outreach. It is possible that in 9 of these 18 cities the health care needs of homeless
people might be served because a Health Care for the Homeless grantee program
exists in those cities. However, the remaining nine cities had neither a grantee nor
received outreach from the local CHC.

Shelter staff identified their outreach needs. Following are examples of some of the
outreach services which they feel would be important.

       “We are always struggling to help our residents receive needed health care.
        We would welcome contact from any medical group that can help,”

      “Not enough clients are seen due to lack of available physicians’ time. There
      needs to be more medication, casework, aftercare, and outreach to psychiatric
      patients,”

      “Non-emergency transportation should be accessible to shelters for early
       morning pick-up for sick children to get to the clinic,”

      “They only visit our shelter every other week. A lot of times clients have come
      and gone by the time they make another visit,”

      “We need better communication specifically about services they offer and fees
       required. Evening and Saturday hours would be helpful for the working
       families who need their services.”




                                            4

COMMUNITY HEALTH CENZZRS PROK71)EA WIDE RANGE OF
TUE4131ENT SERWCES TO HOMELESS PEOPLE

The centers provide a broad range of treatment services. The type of services most
commonly provided to homeless clients include:

  �	   Acute medical examinations and treatment, e.g. scabies, lacerations, and foot
       ulcers.

  .	   Screening services for tuberculosis, hypertension, sexually transmitted   diseases,
       and human immunodeficiency virus.

  �	   Preventive services including well child care (Early, Periodic Screening
       Development and Treatment program), immunizations (adults and children),
       comprehensive physicals, prenatal monitoring, and dental.

As shown below, a significant number of CHCS also provide other services which are
available to any homeless patient.

              Number of CHCS       Type of Services


                     40            Laboratory services

                     34            Prescription drugs

                     26            Radiology services

                     19            Mental health counseling

                      8            Substance abuse treatment


Thirty-one of them reported the percent of treatments that were associated with
emergencies. The responses ranged from 1 to 90 percent, with an overall average of
15 percent of treatments being related to emergencies.

The typical center in our sample operated with a budget of $4.4 million, treating an
average of almost 15,000 persons/users annually. There was an average of 264
homeless clients served out of an estimated 500 homeless persons in their service area.
Approximately 3 percent of their annual budget goes toward the operating costs for
serving homeless clients. In addition, for those centers who reported both the total
number of persons served and the total homeless clients served, approximately two
percent of the total were homeless.

All centers receive funding from Federal grants, with supporting funds from State and
local grants. One-third (34 percent) also rely on foundations and donations.   Other
sources of revenue include third party payers, like Medicare, Medicaid, and patient
payments. Some conduct fund-raising and United Way campaigns as well.

Fifty-eight percent of the CHCS’ clients are single adults over age 20, with over half of
them having no insurance.


                                            5
The centers reported that at the time of their first encounter, homeless clients were
living in the follow”ng locations (in descending order): emergency shelters,
family/friends, motels, and on the street.

NEYERZ?YELESS,ZWE CENTERS FACE SIGNIFICANT BARRIEIW IN
PROWDING SERWCES

While most centers provide services for homeless persons, nevertheless, the centers
have reported significant barriers in reaching them. A number of centers were not
able to report how many homeless persons they serve. However, the figures we do
have document that centers are not reaching all of the homeless population in their
service area.

Sixty-nine percent (34 of 49) of the centers reported that barriers exist for homeless
people in obtaining services. The most significant barriers (in priority order as
reported by CHCS) are:

       (1) The lack of available transportation

       (2) The center’s hours of operation

       (3) Transient status of homeless individuals makes it difficult to establish a plan

            of care (e.g., outreach, transportation)
       (4) Clients’ inability/unwillingness to follow through on a plan of care
       (5) Other necessary services not available in the community (e.g., affordable
           housing, mental health services)

In general, the shelter responses to barriers paralleled this list. Additional barriers
reported by the shelters include the clients’ unwillingness to go to the center for
sefices and the client not staying long enough in the shelter.

Many centers indicated that they attempt to address barriers in making services more
accessible to homeless clients. The following number reported specific semices or
procedures implemented to address barriers.

       Number of CHCS        Actions to Address Barriers

              22             Provide transportation to the center
              20             Changed their hours and/or extended the hours of
                             operation
              19             Improved availability of telephones
               8             Provide services at alternate sites (e.g. an off-site clinic)

Fourteen percent (6 of 44) of the centers adapted their treatment or screening
protocols to meet the needs of homeless clients. Some of these efforts include:

  .    Addressing as many health needs as possible at the initial appointment,



                                             6

  �	   Adjusting any follow-up plan to consider how the needs of homeless clients will
       impact treatment or follow-up.

SOME HOMELESS SHELTERS DO NOT REFER CLIEN73 TO
NEARBY CENTERS

Twenty-eight percent (27 of 97) of the homeless shelters reported they did not refer
clients to centers for health care services. Reasons reported (in priority order)
include:

       (1)    They were not aware of the center

       (2)    They use an existing Health Care for the Homeless program

       (3)    Clients will not access a center due to long waits for appointments

       (4)    The center is in a different area of town

       (5)    Clients will not go there due to safety concerns

       (6)    The center is not a member of the local homeless coalition

       (7)    Centers have not been receptive to homeless individuals


The remaining homeless shelters referred their clients to centers. Shelter clients used
public transportation, shelter bus tokens, or their own transportation to travel to the
center. Others walked, relied on family and friends, or in some cases used an
ambulance.
OPPORTUNITIES                               FOR         IMPROVEMENT

The findings in this report reflect a greater potential for CHCS helping homeless
people. Better communication between the Health Resources and Services
Administration (HRSA) and the centers, and between the centers and homeless
shelters could improve access to medical semices for homeless individuals. Therefore,
we suggest that:

HW    SHOUW PURSUE WPROJZUEN7X IN SERIL?CESOFFERED HOMELESS
PEOPLE IN THE COM~N~HEALIZ?         CENTER PROGRAM BYBUILZXNG ON
ITS EXXSTINGEFFORZS. Examples include:

   .	   Developing and disseminating materials which outline “best practices” from the
        Community Health Center program and, as applicable, the Health Care for the
        Homeless Program to improve outreach and referral techniques to serve
        homeless persons.

  .	    Holding workshops and training sessions for Community Health Centers as part
        of the Bureau of Primary Health Care’s program presentations.

HRSA SHOULD PROMOTE JZi59ESPR&4DCOLLABORATION BETWEEN CHC%
AVl) N-Y   SHELTERS.

HRSA could do this by such activities as:

  �	    Emphasizing the responsibility of CHCS to lessen all barriers which diminish the
        ability to serve homeless persons who present themselves to the clinic
        (e.g., hours of operation, transportation to the center).

  �	    Encouraging periodic contact between management of the center and shelters
        to assess the homeless populations’ medical needs, and possible solutions to
        addressing those needs.

  �	    Ensuring that national associations representing homeless shelters are provided
        listings of CHCS nationally. This will permit these organizations to further
        disseminate the information to local homeless shelters.

CHC$ SHOULD lMPROVE COMMU..IGXTION J??ITHHOMELESS SHELTERS.

Some ways to accomplish this include:

  �	    Identifying all homeless shelters that exist in their service areas. The city task
        forces, coalitions, or networks on homeless populations are valuable resources.

  �	    Providing, on a routine basis, information to those homeless shelters in their
        service areas on services available and locations.


                                             8
   �	   Conducting periodic meetings with homeless shelters to discuss the medical
        needs situation in their area, the barriers that exist, and means to best address
        those barriers.

AGENCY COMMENTS AND OIG RESPONSE

We received written comments from both HRSA and ASPE. HRSA concurred with
our suggestions and will develop an action plan to implement them. ASPE
commented on the importance of the findings, but raised some questions and made
recommendations for additional analyses.

One of ASPES questions relates to the definition of “homeless”. We found no
uniform or standard definition of this term. For example, some include those
individuals who reside in transitional housing while others do not. Similarly, some
would include those who are temporarily staying with friends or relatives but who
otherwise would be homeless, while others would not consider such individuals as
homeless. In preparing our survey we consulted with staff of both HRSA and ASPE
and agreed to gather information using a broad definition. We explicitly asked the
Community Health Centers to identify the conditions under which their homeless
clients lived, including those temporarily staying with friends and relatives. We
modified our report to make this clear and have provided staff of HRSA and ASPE
with a summary of responses which we received from the centers on this matter.

Similarly, ASPE requested us to include a definition of “outreach” and the types of
activities it includes. We modified our report to provide a fuller description of the
kinds of outreach activities provided by the centers and needed by the shelters.

ASPE requested analysis of additional topics, such as referral patterns, service
coordination, emergency services, case management, and actions taken to address
barriers. We agree that these are all very important topics. Unfortunately they are
beyond the scope of our study. In our early consultations with both ASPE and HRSA
staff we agreed that our review would be limited primarily to ascertaining whether and
to what extent the community health centers funded by the Federal Government were
actively involved in serving homeless individuals. We also expected to identify issues
for further study, such as those described by ASPE in their comments. Nevertheless,
even though we did not gather extensive data on the these subjects, our staff are
available to provide insights on these or other such topics based on their observations
and impressions from their site visits.

The full text of HRSA’S and ASPE’S comments are attached.        We appreciate   their
advice and assistance in this study.




                                            9

AGENCY        COMMENTS




         10
2-@               DEPARTMENT OF HEALTH & HUMAN SERVICES
.“
2                                                                Public Health SeNice
,
5
 *+,
   4J?V,,
     > o
                                                                 Health   Resources   and
                                                                  Services   Administration
                                                                 Rockville   MD   20857
                                         ~/$(   8   l~!%




            TO:          Inspector General, OS, DHHS


            FROM :      Deputy Administrator


            SUBJECT :	 Office of Inspector General (OIG) Draft Report        “Access

                       to Community Health Centers by the Homeless”

                       OEI-07-95-00060



            This is in response to your March 22, 1996, memorandum requesting

            comments to the draft report, “Access to Community Health Centers

            by the Homeless. ” We concur with the OIG’S suggestions that HRSA

            should: 1) pursue improvements in services offered homeless

            people in the Community Health Center (CHC) program by building

            on existing efforts, 2) promote widespread collaboration between

            CHCS and nearby shelters, and 3) determine how CHCS should

            improve communication with homeless shelters. HRSA will develop

            an action plan, including target dates, to implement the

            suggestions and will take into consideration the examples the OIG

            offered concerning their implementation.


            Additionally, attached is a marked-up copy of the draft report

            with editorial and margin comments for the OIG’S consideration.





            Attachment

       DEPARTMENT       OF HEALTH & HUMAN         SERVICES                          Office of the Secretary



                                                                                    Washington,   D.C,   20201

                                                MAY   i   ~   1996


               Jnw Gibbs Brown
               Jnspector General

FROM:          Assistant Secretary for Planning and Evaluation

SU3JECT:	      Comments on the OIG Dmft Repofi “Access to Community Health Centers by
               the Homeless/’ OE1-07-95-00060


Thank you very much for the opportunity    toreview
  the above referenwd draft, Knowledge
about the extent that Federally funded wmununity health centers (CHCS)serve the homeless and
how such serviees can be improved is highly important In general, we found the report
comprehensive: it addressed outreach services to shelters, treatment sewices, barriers to
acwssing services and the referral of homeless clients. The reported barriers to services and
reasons given by shelters for not refcrrkg clients to centers for health care services is importanl.
We did, however, have some conwns and recommendations.

1,     Definitions: Absent were definitions of homeIess and outreaeh. Without the deflnhions,
       the findings beoome obfuscated. For example, the report states that      overtwo-thirds
  ofthe
        homeless dicnts treated were staying in an emergency shelter or livingwithjbnll’yor
       jWm?s. We had not included the latter group in our definition ofhomcless--did the
        CHC!awrite this in as an “other” category? The definition of homeless is of critical
        importance, particularly, as it is used as part of the rationale for excluding rural centers
        (i.e., the majority of rural centers do not serve “the normal on-th~street homeless.”) We
        are not sure of what is mewt by “normal” we surmise that tho report is referring to
        persons who are lilendly homeless.

        The finding that some centers did not send staff to shelters omdd be better interpreted if
        there was a definition of outreach serviees and the types of activities it included, As it
        reads now, outreach includes providing Mormation on available services, visiting
        shelters, having contact with homeless people, non-emergency transportation, and hours
        of serviee.

2.	     Exc!usion of rural centers. With regard to the probe which led to the exclusion of rural
        centers, more information about tlw probo is needed to add clarity and justification for
        their cxclusioll How was the probe conducted? Did it consist of site visits endor
        convemations with key informants? We recwnrncnd you provide more htiormation on
        tile probe used to exclude rural centers.
Page 2- June Gibbs Brown

30	    Referrals. The reports cites constraints on the survey design as the reason for not being
       able to take into account the total extent of referral patterns. If there any data that wuId
       shed some light m the types of scrvkwsto which sheIters report making referrals, (and
       WIWKCEK2Srank in’relatkmship to otbortypes of m-vices ) please provide them,

4.	    Service coordination. Mentioned in a couple of places is the m-location of HeaIth Care
       for the Homeless (HCH) programs in the same community, If these ciatapermi$ please
       report on referral activities and other service coordbation activities in places where HCH
       pro~ams w eo-lo~ted.

5.     Emergency services and ease management. An interesting finding is the reported
       percentage of emergency scrviecs provided to homeless clients, A related quesdon is
       whether these were in fact “true” emergencies or were persons aoccssing primary health
       care through the emergeney room. If data m available on the nature of the
       emergencies, we request that they be reported.

       Additionally, did any of the centers report providing ease management services’? If so,
       report the percentage which provide case management servieea.

6,	    Barriers. Important f-s      were presented on the actions taken to address the barriers
       to servioe, A fh,hly common reported action was the “itnpmved availability of
       telephones.” Please clari& what is meant by the action (e,g., were 1-800 numbers or hot
       Iincs added or were telephones made available within the oommunit.its)?

       If the data permit, pIease report comments made by respondents on the eff’cotsof actions
       to adr.iressbarriers (c,g,, increased access to services, improved quality in screening,
       increased servioe usage, etc.).

       Xfthedata permit report           inthebtiers
                             onthedfierenee
                     identified by CHCS and those
       identified by shekms?

-7.	   People focused kmguage (rather than illness and homeless focused), The report
       consisted y refers to homeless persons as “the homeless” and persons with chronic
       mcnlal illness as ‘Ihe chronieajly rncmkdlyill,” We mornmend you revise the
       terminologies to read: homeIcss persons or homeless peopl% and persons with chronic
       mental ihess.

We hope the comments and recomrnendatiom will be usefid and look forward to receiving the
fma! report.


                                   (72-4,$j22
                                        Peter B. Edehnan
